                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                     Review of the
                                                Department of State’s
                                             Shuttle Bus Fleet Operations

                                           Report Number ISP-I-12-50, September 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION
       This review was conducted in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for the U.S.
Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this review, the inspector: reviewed pertinent records; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                          i
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                    1
Context and Background                                           2
   The A-76 Process and the Most Efficient Organization          2
   Shuttle Bus Fleet Operations                                  2
(b)(3)                      Routine Maintenance                  3
(b)(3)                 Shuttle Bus Mechanical Problems (b)(3)
(b)(3)                                                            4
Record Keeping in the Fleet Management and Operations Division    5
Clarification of Responsibilities                                 6
(b)(3)     Buses with Perimeter Seating                           7
Coordination with the General Services Administration             8
Costs to Repair and Lease Shuttle Vehicles                        9
   Projected Demands on the Shuttle System                        9
List of Recommendations                                          10
List of Informal Recommendations                                 11
Principal Officials                                              12
Abbreviations                                                    13




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Fleet Management and Operations Division (FMO) provides a satisfactory level of
       routine maintenance services for the Department of State’s (Department) bus fleet. FMO
       does not always act on nonroutine mechanical problems with the vehicles in a timely
       manner, (b)(3)


   •   The FMO program has organizational, management, and process deficiencies, and its
       record-keeping system is inadequate.

   •   The Department needs to review the number and condition of the buses and determine
       whether it is more cost effective to continue leasing vehicles from the General Services
       Administration (GSA) or switch to a commercial company.

   •   FMO does not interact with GSA in a manner that optimizes the cost and efficiency of the
       shuttle bus system.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas in which OIG did not identify problems that need to be corrected.

The field work for this review took place in Washington, DC, between June 27 and July 31,
2012. (b) (6)                                                .




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context and Background
The A-76 Process and the Most Efficient Organization

        Under the provisions of the U.S. Office of Management and Budget Circular A-76 (A-76)
on competitive sourcing, in 2007 the Department awarded a 5-year, $19.7 million contract to
FMO to provide fleet management, shuttle, and sedan services. The Most Efficient Organization
(MEO) within FMO was selected as the winner of a public-private competition. 1 The intent was
to transform the former in-house fee-for-service operation to a market-based pricing model, and
it was projected to save the Department $1.25 million over the course of the 5-year contract. The
publicity provided at the time noted that the MEO would save money and increase accountability
via the exclusive use of government-owned and operated shuttles and introduce flexibility into
position descriptions (PD) as drivers would be able to operate any of the vehicles, from sedans to
shuttle buses, rather than only a particular vehicle. In December 2011, as part of the 2012
omnibus spending bill, Congress extended the ban on Federal agencies competing work between
contractor and federal employees, effectively ending A-76.

       The MEO portion of FMO is a disorganized and dysfunctional office, with no clear
delineation of responsibilities and authority. The MEO will end in 2012, and with this
termination, FMO has an opportunity to review and revamp the fleet management organization.

Shuttle Bus Fleet Operations

        In June 2012, the Department was leasing 15 shuttle buses from GSA for an annual cost
of around $416,400. When a shuttle bus is out of service and FMO has no replacement vehicles
in the pool, FMO contracts for replacement services from a commercial vendor. From January
through June of 2012, FMO contracted for 68 days of replacement shuttle vehicle services for a
total cost of $91,971. 2

        The shuttle buses are aging and need frequent repair. Although the average age of a bus
is 5 years, some of the buses are 9 years old. The mileage of the buses ranges from 18,000 to
129,000, with an average odometer reading of 69,759 miles on July 11, 2012.

        GSA pays for maintenance and repair of leased vehicles. The projected average number
of visits to the shop in 2012 is 10 per vehicle. The average time in the shop for each visit is 12
days. Some vehicles are in the shop for as long as 40 or 50 days at a time, but the usual range is
from 6 to 20 days.

        Twenty-six operators drive the buses and other Department vehicles. The Department
uses the buses primarily for shuttles but also provides group transportation services. For the
purposes of this report, the term “shuttle bus” includes all such services.


1
  A-76 defined the MEO as the Government’s in-house organization deemed the most efficient for
competition with the private sector in accordance with A-76 guidance and 10 U.S.C. 2461.
2
  This figure does not include the cost for additional shuttle vehicles, such as the Ballston/Foreign
Service Institute shuttle being tested during summer 2012.
                                                    2
                                 SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

(b)(3)
                                                      Routine Maintenance
          (b)(3)
                      the Office of Inspector General (OIG) conducted a review of how
FMO managed scheduled and unscheduled maintenance for the Department’s shuttle bus fleet.
           (b)(3)



       During the review, GSA representatives told the OIG inspector that for some of the FMO
buses, GSA had been using the maintenance schedule for light trucks, instead of that for buses.
GSA subsequently provided the correct schedule.

           Informal Recommendation 1: The Bureau of Administration should review the
           appropriate General Services Administration maintenance schedules for the shuttle buses
           and should take buses to the vendors to update or perform any services that might have
           been omitted under the light truck schedule.

        GSA reports that all of its vehicles have a preventive maintenance (PM) schedule
assigned when they are entered into the GSA system. The publication, GSA Inspection and
Safety Procedures for the Department of State’s D.C. Area Buses, notes that the “schedule is
determined by the class of vehicle, fuel type, and type of use. All PM schedules require a PM
inspection at least every 12 months and upon a varying range of mileages, with shorter time and
mileage intervals available for more severe use vehicles. Schedules specific to buses require
both tire and brake inspections at each interval, along with a number of required services.”

        On July 14, 2012, GSA reported that all 14 buses leased to the Department had a PM
inspection within the past year, with an average of 224 days between PM inspections. 3 The 14
buses were averaging three visits per year, for the past 2 years, to maintenance shops for work on
tires and brakes. GSA stated that these visits allowed for inspection of safety components as
well.

       Although GSA personnel said that they normally informed FMO when preventive
maintenance was due, recent computer problems have interrupted this practice.

           Informal Recommendation 2: The Bureau of Administration should establish a
           procedure for checking the General Services Administration vehicle database to keep up
           to date on when preventive maintenance is due for each shuttle bus.




3
    On July 11, 2012, GSA took one bus out of service, reducing the number to 14.
                                                  3
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b)(3)
                                     Shuttle Bus Mechanical Problems and
(b)(3)


         (b)(3)


                               The OIG review found that, at least on occasion, driver
comments regarding mechanical problems were not acted upon quickly by FMO managers.

        FMO relies on drivers to identify maintenance problems. The operators are required to
do a pre-trip inspection each time they begin driving a vehicle, entering information into the
Vehicle Inspection Report (hereinafter called the logbook). The logbook itself remains in the
vehicle. Each page in the logbook has two sheets. The driver tears out the first sheet and
delivers it to the dispatch office. The other sheet remains in the book. Thus the drivers can see if
previous operators have identified problems with the vehicle.

        The logbooks are designed to help drivers do thorough pre-trip inspections. The drivers
report problems to the dispatcher either in the logbooks or by telephone or radio. The logbooks
do not always indicate the problems reported verbally by the drivers. The dispatcher keeps the
equivalent of “cuff records” for verbal reports, but this information is not put into a file for that
vehicle. This gap in record keeping means that the response of FMO management to the drivers’
concerns cannot always be verified by the records. Many of the drivers interviewed said that
their supervisors took appropriate action when they reported problems with the shuttle buses, but
written records that might substantiate these comments are incomplete.

        The OIG inspector reviewed logbooks from January 2012 through June 2012 for three
representative vehicles, and compared the information to the records of maintenance work
performed on those vehicles during the same time period. For the first vehicle, the OIG
inspector found a delay of 2 days from the time a driver wrote “Don’t Drive” in the logbook to
the time FMO management took the vehicle out of service. For the second vehicle, the inspector
found a delay of 10 days between the time a driver indicated the vehicle had problems and the
time FMO management took the vehicle for service. In the third case, FMO took the vehicle out
of service when a driver indicated problems with the brakes, but there was no indication that the
vehicle was repaired.




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Record Keeping in the Fleet Management and Operations
Division
        FMO’s record keeping is inadequate. Many of the staff members in FMO said that
because GSA provided and maintained the vehicles, FMO did not need to keep records. GSA
does keep records on its database, and these can be downloaded by FMO personnel. But the
GSA records do not provide details on what maintenance was performed. They list such items as
“head lamp assembly,” “slack adjuster,” “compressor belt,” and “brakes.” The drivers report
that many vehicles go back again and again for the same service, but the abbreviated GSA
records do not always allow these patterns to be identified. In addition, GSA records do not
show the number of days that a vehicle is in the shop. Since the FMO buses average 12 days for
each visit to the shop, this information is important in managing and monitoring the bus fleet and
in applying to GSA for credit when vehicles are out of service.

       The OIG inspector reviewed information on maintenance and repair services performed
when buses were sent to the shop. FMO provided two sets of data on vehicle repair history, and
GSA provided a third set. The three sets of data were not consistent. While it is clear that the
vehicles are being taken to the shop for services, including preventive maintenance, it is not
always clear which services are being performed and whether these services are fixing the
problems identified.

        When a vehicle has been serviced, a driver picks it up from the shop. Sometimes the
driver checks to ensure that the requested service has been performed and that the problem is
fixed, but there are no records to show that this is always done. The vendor sends an invoice to
GSA. Sometimes the driver who picks up the vehicle also obtains a copy of the invoice, and
sometimes not. FMO is not reviewing the invoices to determine which services the vendor said
it was providing and whether these services solved the problem that FMO identified.

        There is no designated record keeper for the shuttle vehicles. During the OIG review,
many of the FMO staff members identified someone else as being responsible for or having data
pertaining to issues such as mileage, maintenance and repair, accidents, and incidents that may
have resulted in injuries to passengers. Frequently, the persons identified did not have the data.
Some of them referred the OIG inspector back to the first respondent.

        The FMO written record system needs to be improved. Office personnel do not indicate
when they have reviewed logbook pages and what their actions were, if any. When FMO asks a
more knowledgeable driver to verify problems identified by another operator, FMO does not
keep written information on the results. The office does not systematically note when problems
occur with a bus and when a bus has been sent for service. The records do not show clearly what
services were performed and do not include a mechanic’s signature verifying that services were
completed. The records do not show a driver’s signature that the vehicle was checked at the time
of pick up from the vendor. In order to manage the fleet in a cost effective manner, FMO must
gather and maintain this information in a computerized system that allows monitoring and
tracking of each bus and its repair record.


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The Bureau of Administration should institute a comprehensive record-
keeping system to track maintenance of the shuttle buses. (Action: A)

        Drivers are not using consistent wording in the “Remarks” section of the logbook. They
write comments such as “same old damages,” “check brakes,” “OK,” and “no new damages.”
Office personnel and the drivers interpret these remarks differently. The drivers think they are
reporting problems that sometimes involve safety issues. Office personnel do not take action
when reviewing such comments.

       Informal Recommendation 3: The Bureau of Administration should implement standard
       nomenclature for vehicle maintenance and repair.

Clarification of Responsibilities
        Under the MEO, the supervisors of the motor pool (the MEO co-managers), the
dispatchers, and the drivers were separated from the remainder of FMO. Inventory management
personnel, who also kept the records, were not part of the MEO. The fleet manager told the
inspector that all of the PDs of the MEO personnel were revised when the MEO was instituted.
The PDs for the supervisory transportation operations specialists (supervisors) refer to the MEO
as do those for the program analysts (quality assurance) and the grade 8 drivers. However, the
PDs for the grade 7 drivers and the dispatchers do not contain references to the MEO. The PDs
do not always reflect the responsibilities that individuals are performing, and several individuals
may share the same PD but perform different responsibilities.

       Informal Recommendation 4: The Bureau of Administration should review and update,
       as appropriate, all position descriptions in the Fleet Management and Operations
       Division.

       FMO supervisors and dispatchers determine when a vehicle is sent for repair, usually
without physically examining the vehicle themselves, although they may ask a driver to verify
the problem. The drivers who take the vehicles to the vendor for repair carry a written list of the
problems with the vehicle but may not have personal knowledge of the problems. When a driver
picks up a vehicle from the vendor after repair, he/she does not always verify that the repair has
been completed satisfactorily and that the vehicle is in good condition.

        The MEO assigned drivers to operate any of the vehicles, from sedans to shuttle buses,
rather than only a particular vehicle. When an operator drives one vehicle over a long period of
time, he/she becomes familiar with that vehicle and can track its maintenance and repair. When
the drivers shift from vehicle to vehicle, this familiarity is lost. FMO does not have personnel
who are knowledgeable about the performance and history of each vehicle. This lack of
continuing oversight contributes to the gaps in tracking and monitoring maintenance issues.

Recommendation 2: The Bureau of Administration should implement procedures for
maintenance of shuttle buses, including identifying an employee responsible for the fleet’s
maintenance. (Action: A)


                                           6
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       Although the logbooks kept in each bus list items to be reviewed, drivers do not always
perform thorough pre-trip inspections.

         Informal Recommendation 5: The Bureau of Administration should develop and
         provide operators with written guidance on shuttle bus maintenance duties, including
         what is required to document full, walk around, pre-trip inspections of equipment; how
         and when this information is to be conveyed to dispatch or management personnel; and
         how problems with the buses that occur later in the trip are to be reported and
         documented.
         (b) (5)
                                           The PDs for the two grades of operators differ in the
wording of the responsibilities with respect to performing inspections and safety checks and
keeping records. One PD refers to post-trip reports and the other to trip tickets. A standard
terminology would improve understanding of and compliance with the reporting requirements.

         Informal Recommendation 6: The Bureau of Administration should implement standard
         terminology for vehicle inspections and vehicle reporting requirements for use in position
         descriptions and documentation of procedures.
(b)(3)
                   Buses with Perimeter Seating
         FMO leases four buses with perimeter seating, rather than seats that face forward. These
vehicles meet Department of Transportation-approved standards and GSA specifications for
passenger vehicles. Two of the buses were involved in incidents that resulted in injuries when
the drivers applied the brakes suddenly and seated passengers fell to the floor. Both operators
reported that their experiences with perimeter seating buses led them to take extra caution when
driving these vehicles. They said that now they regularly drive much more slowly, even if this
results in the shuttle being delayed.
         (b)(3)
The seats do not have seat belts, arm rests, or hand holds. The operators said that driving
conditions in the Washington, DC, area made sudden application of the brakes a common
occurrence.

Recommendation 3: The Bureau of Administration should coordinate with the General
Services Administration to resolve concerns about buses with perimeter seating or exchange the
buses for models without perimeter seating. (Action: A)




                                            7
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Coordination with the General Services Administration
        FMO communication and interaction with GSA are poor, whether in determining why
vehicles have lengthy repair times, obtaining credit for vehicles out of service, or identifying
suitable vehicles to lease for the Department’s shuttle operation. GSA officials told the inspector
that other agencies “were on their backs all the time” and that GSA was helping other agencies
find vehicles that met the demands of their mission. GSA personnel also told the inspector that
they would meet with FMO staff more often than the once-a-year meetings that FMO currently
holds with GSA.

       FMO personnel who work with GSA regional staff to lease buses spoke of the experience
as one of taking what they could get. They told the inspector that they often visited the
Springfield, VA, GSA office and if they found a bus on the lot would ask GSA personnel if it
was available for lease. The OIG inspector met with GSA officials, who advised that FMO
should develop a list of specifications for future replacement buses, and that GSA did not dictate
what kind of leased vehicles the Department would get. FMO personnel told the OIG inspector
that GSA did not accept specifications for leased equipment.

        Asked why vendors were keeping vehicles sent for repair for an average of 12 days, GSA
officials said that if FMO notified the regional GSA office on the third day after a vehicle had
been taken to the vendor for repair, GSA would work with the vendor to determine why the
repair was taking longer than 3 days. The regional personnel said that they did not know when a
vehicle was sent to a vendor for repair unless FMO staff told them.

        GSA’s maintenance control center approves all maintenance and repairs. FMO staff told
the inspector that the maintenance control center would not approve certain types of repairs.
However, the regional GSA personnel told the inspector that they would intercede with the
maintenance control center to help get approvals. In subsequent discussions with the OIG
inspector, FMO staff said that the regional staff did not have the authority to oversee repairs.

        GSA regional personnel told the inspector that GSA could issue credit for vehicles kept
in the shop for long periods of time. FMO personnel had some knowledge of this practice.
However, neither GSA nor FMO staff could identify what the time period was before GSA
would issue credit. FMO has not asked GSA for credit.

Recommendation 4: The Bureau of Administration should implement a communication process
with the General Services Administration that includes determination of specifications for future
replacement vehicles, notification of regional General Services Administration staff when a
vehicle is sent to a vendor for service, and implementation of a credit process when a vehicle is
out of service for an extended period of time. (Action: A)




                                           8
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Costs to Repair and Lease Shuttle Vehicles
        In 2011, the average number of visits to the shop per shuttle vehicle was seven. If the
trend for the first 6 months of 2012 continues, the vehicles will average 10 visits each for 2012.
The average number of days in the shop in 2012 is 12. Thus the forecast for 2012 is for the
buses to spend an average of 120 days each in the shop. Out of 365 days in the year, the buses
will spend approximately one-third of that time in the shop.

        FMO pays GSA an average of $2,300 per month to lease a vehicle or an average of
$34,700 per month for the entire fleet. FMO pays a contractor an average of $15,000 per month
for substitute shuttle vehicles when leased vehicles are in the shop. Thus the monthly cost of
shuttle vehicles is increased by over 40 percent due to inoperability and maintenance time for the
fleet. (Some of the days in the shop are for routine maintenance and would be required even if
the buses were in good repair.) 4

Projected Demands on the Shuttle System

        The Department is increasing demands on the shuttle system. For example, during
summer 2012, FMO was testing a Ballston/Foreign Service Institute shuttle using contractor
buses and drivers. If the decision is to implement this shuttle route, FMO will have to determine
whether to use leased buses or contract out the service. The Department is in the midst of the
largest hiring initiative in its history, with a projected 24 percent increase in diplomatic staffing
by 2013. During 2009 and 2010, the Department increased the size of its workforce by nearly 15
percent. The budget and staff at the Foreign Service Institute tripled from 1999 to 2012, and
about 2,000 students are on campus daily. In 2010, the Foreign Service Institute added 100 new
classrooms. In early 2013, the Department will move about 300 Bureau of Consular Affairs
employees from SA-1 to quarters in the former World Bank building. Other Department
personnel will also move into that space. In January 2013, FMO will add the World Bank
building to the Rosslyn shuttle route.

        In light of the actual and projected demands for shuttle services, and given the cost
differential between leasing and contracting for shuttle vehicles, FMO would benefit from a
review of the number of shuttle vehicles to ensure that there are sufficient vehicles for an
economical and cost effective operation. Such a review would include consideration of the
number of days lost when vehicles are out of service.

Recommendation 5: The Bureau of Administration should review the actual and projected
demands on the shuttle bus system and prepare written documentation on the number of shuttle
vehicles needed and whether to continue leasing shuttle vehicles from the General Services
Administration or to contract services from a commercial company. (Action: A)




4
  Costs to the Department include driver time and mileage when taking vehicles to the shop for repair. This cost is
doubled since a second vehicle and driver must accompany the first vehicle to bring back that driver. One
frequently used GSA vendor is located near Baltimore, MD, almost 40 miles from the Department.
                                                9
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Administration should institute a comprehensive record-
keeping system to track maintenance of the shuttle buses. (Action: A)

Recommendation 2: The Bureau of Administration should implement procedures for
maintenance of shuttle buses, including identifying an employee responsible for the fleet’s
maintenance. (Action: A)

Recommendation 3: The Bureau of Administration should coordinate with the General
Services Administration to resolve concerns about buses with perimeter seating or exchange the
buses for models without perimeter seating. (Action: A)

Recommendation 4: The Bureau of Administration should implement a communication
process with the General Services Administration that includes determination of specifications
for future replacement vehicles, notification of regional General Services Administration staff
when a vehicle is sent to a vendor for service, and implementation of a credit process when a
vehicle is out of service for an extended period of time. (Action: A)

Recommendation 5: The Bureau of Administration should review the actual and projected
demands on the shuttle bus system and prepare written documentation on the number of shuttle
vehicles needed and whether to continue leasing shuttle vehicles from the General Services
Administration or to contract services from a commercial company. (Action: A)




                                         10
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Administration should review the appropriate
General Services Administration maintenance schedules for the shuttle buses and should take
buses to the vendors to update or perform any services that might have been omitted under the
light truck schedule.

Informal Recommendation 2: The Bureau of Administration should establish a procedure for
checking the General Services Administration vehicle database to keep up to date on when
preventive maintenance is due for each shuttle bus.

Informal Recommendation 3: The Bureau of Administration should implement standard
nomenclature for vehicle maintenance and repair.

Informal Recommendation 4: The Bureau of Administration should review and update, as
appropriate, all position descriptions in the Fleet Management and Operations Division.

Informal Recommendation 5: The Bureau of Administration should develop and provide
operators with written guidance on shuttle bus maintenance duties, including what is required to
document full, walk around, pre-trip inspections of equipment; how and when this information is
to be conveyed to dispatch or management personnel; and how problems with the buses that
occur later in the trip are to be reported and documented.

Informal Recommendation 6: The Bureau of Administration should implement standard
terminology for vehicle inspections and vehicle reporting requirements for use in position
descriptions and documentation of procedures.




                                         11
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                            Name     Arrival Date
Assistant Secretary, Bureau of
Administration                                         Joyce Barr        12/2011
Deputy Assistant Secretary                            Keith Miller        1/2009
Deputy Director for Operations                     Thomas J. Sgroi       10/2007
Director, General Services
Management                                          Barry K. Shpil        8/2010
Chief, Fleet Management and
Operations                                         James Goodwin          3/2010
Assistant Chief, Fleet
Management and Operations                        Michael Passmore         5/2011
MEO Co-Manager                                   Chantay Newman           6/2007
MEO Co-Manager                                    Rickie Sampson         12/2010




                                        12
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
A-76            U.S. Office of Management and Budget Circular A-76

Department      U.S. Department of State

FMO             Fleet Management and Operations Division

GSA             General Services Administration

MEO             Most Efficient Organization

OIG             Office of Inspector General

OSC             U.S. Office of Special Counsel

PD              Position description

PM              Preventive maintenance




                            13
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
